1

APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
App. 1
(November 14, 2019). . .
Appendix B Opinion & Order and Judgment in the
United States District Court Southern
District of New York
. App. 9
(March 29, 2019)...........
Appendix C 42 U.S.C. § 2000bb-l(c)

App. 24

84 Stat. 1242..................

App. 24

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
19-925
[Filed November 14, 2019]
Ben Adam,
Plaintiff-Appellant,
v.

)
)
)
)
)
)
)
)

William P. Barr, United States Attorney
General, Geoffrey Steven Berman, United
States Attorney for the Southern District of )
New York, Uttam Dhillon, Administrator of )
the United States Drug Enforcement
)
Administration,
)
Defendants-Appellees.

)
)

SUMMARY ORDER
Rulings by Summary Order Do Not Have
Precedential Effect. Citation to a Summary Order
Filed on or after January 1,2007, Is Permitted and
Is Governed by Federal Rule of Appellate
Procedure 32.1 and this Court’s Local Rule 32.1.1.
When Citing a Summary Order in a Document Filed

App. 2
with this Court, a Party must Cite Either the
Federal Appendix or an Electronic Database (With
the Notation “Summary Order”). A Party Citing to
a Summary Order must Serve a Copy of it on Any
Party Not Represented by Counsel.

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 14th day of November,
two thousand nineteen.
PRESENT:
ROBERT D. SACK,
PETER W. HALL,
JOSEPH F. BIANCO,
Circuit Judges.
FOR PLAINTIFF-APPELLANT: Ben Adam, pro se,
New York, NY.
FOR DEFENDANTS-APPELLEES: Jennifer Jude,
Benjamin H. Torrance, for Geoffrey S. Berman, United
States Attorney for the Southern District of New York,
New York, NY.
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Nathan, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, AD JUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Ben Adam, proceeding pro se and under a
pseudonym, sued the United States Attorney General,

App. 3
the United States Attorney for the Southern District of
New York, and the Administrator of the Drug
Enforcement Administration under the Religious
Freedom Restoration Act (“RFRA”), 42 U.S.C.
§ 2000bb-l(a), the Free Exercise Clause of the First
Amendment, and the Equal Protection Clause of the
Fifth and Fourteenth Amendments. As the founder of
an Orthodox Jewish organization, Adam believes that
the psychoactive properties of the cannabis plant help
induce a pre-prophetic ecstatic state which can connect
an individual to God and the divine realms. He claims
a right to use cannabis for religious purposes and
contends that the defendants should not enforce the
Controlled Substances Act (“CSA”), listing marijuana
as a controlled substance, against him. The district
court dismissed Adam’s amended complaint, ruling
that he did not have standing to bring a preenforcement challenge for declaratory and injunctive
relief. Adam appealed. We assume the parties’
familiarity with the underlying facts, procedural
history of the case, and issues on appeal.
I. Legal Standard
“We review de novo a district court’s dismissal of a
complaint for lack of standing.” Selevan v. N.Y.
Thruway Auth., 584 F.3d 82, 88 (2d Cir. 2009).
“Standing under Article III of the Constitution
requires that an injury be concrete, particularized, and
actual or imminent; fairly traceable to the challenged
action; and redressable by a favorable ruling.” Cayuga
Nation v. Tanner, 824 F.3d 321, 331 (2d Cir. 2016)
(quoting Monsanto Co. v. Geertson Seed Farms, 561
U.S. 139, 149 (2010) (internal quotation marks

App. 4
omitted)). For an alleged ■ injury to support
constitutional standing, it cannot be “conjectural or
hypothetical.” Susan B. Anthony List v. Driehaus, 573
U.S. 149, 158 (2014) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992) (internal quotation
marks omitted)).
Where, as here, a plaintiff asserts injury based on
the threat of prosecution, the plaintiff need not “expose
himself to liability before bringing suit to challenge the
basis for the threat—for example, the constitutionality
of a law threatened to be enforced.” Medlmmune, Inc.
v. Genentech, Inc., 549 U.S. 118, 128—29 (2007)
(collecting cases). Rather, pre-enforcement review is
available where the “circumstances . . . render the
threatened enforcement sufficiently imminent.” Susan
B. Anthony List, 573 U.S. at 159; see also Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 298
(1979) (plaintiff “must demonstrate a realistic danger
of sustaining a direct injury as a result of the statute’s
operation or enforcement”). A sufficiently imminent
injury can be established by plausible allegations that
a plaintiff intends to engage in conduct proscribed by a
statute, and “there exists a credible threat of
prosecution thereunder.” Susan B. Anthony List, 573
U.S. at 160 (quoting Babbitt, 442 U.S. at 298). A
credible threat is not established by “imaginary or
speculative” fears of prosecution. Knife Rights, Inc. v.
Vance, 802 F.3d 377, 384 (2d Cir. 2015) (quoting
Babbitt, 442 U.S. at 298). Although “courts are
generally ‘willing to presume that the government will
enforce the law as long as the relevant statute is recent
and not moribund,’” Cayuga Nation, 824 F.3d at 331
(quoting Hedges v. Obama, 724 F.3d 170, 197 (2d Cir.

App. 5
2013)), the mere existence of a law prohibiting intended
conduct does not automatically confer Article III
standing, see Knife Rights, 802 F.3d at 384 (“The
identification of a credible threat sufficient to satisfy
the imminence requirement of injury in fact necessarily
depends on the particular circumstances at issue.”).
II. Discussion
Adam argues that he has sufficiently alleged
standing because “there is an ongoing threat of
prosecution.” Appellant’s Br. at 10. He then cites
numerous cases (most from outside this Circuit):
(1) where courts have found pre-enforcement standing,
without analyzing possible similarities to his case;
(2) where ripeness requirements have been relaxed
when First Amendment rights were at stake, without
explaining why or how First Amendment ripeness
requirements may apply to pre-enforcement standing
challenges; and (3) where a failure to disclaim intent to
enforce a law in response to litigation can confer
standing. He asserts that he has validly claimed that
his right to exercise his religion is being burdened
because his complaint stated that he has an immediate
intent to use cannabis as part of his religious practice.
He refers generally to his essay entitled The Path to the
Tree: Prophecy and its Pursuit in the Jewish Tradition,
which, he contends, was incorporated into his
complaint by reference and “thoroughly discussed the
purpose and circumstances of his intended cannabis
use.” Id. at 17. He also refers to a January 2018
memorandum authored by a former U.S. Attorney
General in which the current Administration
announced its intention to prosecute cannabis

App. 6
possession, distribution, and cultivation. This
memorandum, Adam contends, makes it clear that he
is “under a constant threat of prosecution,” which
limits his religious practices. Id. at 18.
Adam’s contentions on appeal essentially repeat the
conclusory arguments he made in district court
concerning an amorphous threat of prosecution based
on his intended, but illegal, use of marijuana. He
reasons that because he intends to use marijuana, and
such usage is against a law that the federal
government enforces, he could be prosecuted. But he
does not provide insight into any “particular
circumstances at issue” here that could support finding
a “credible” threat of prosecution. Knife Rights, 802
F.3d at 384. He has not alleged, for example, that he
plans to possess and distribute marijuana to the
members of his organization; nor could he, given his
statement that, at present, his organization has only
one member—Adam himself. At most, as the district
court concluded, Adam has merely alleged an intention
to possess marijuana for his own use. But he does not
claim that the CSA has been enforced against him in
the past, nor that he has ever been threatened with
prosecution.1 Nor has he made any allegation
concerning the past or present enforcement of the CSA
in general from which a credible threat could be
inferred in this case.

1 Indeed, Adam alleges that he has never been arrested or charged
with any marijuana-related crimes, in relation to his religious
beliefs or otherwise.

App. 7
The cases that Adam cites to demonstrate that the
Government has enforced the CSA and has imprisoned
people for violating the statute are inapposite. Either
they do not involve criminal convictions for marijuana,
see, e.g., United States v. Lafley, 656 F.3d 936, 940—42
(9th Cir. 2011) (finding "no violation of RFRA where
conditions of supervised release prevented religious use
of marijuana following conviction for conspiracy to
manufacture and possess with intent to distribute
methamphetamine), or they involve distribution rather
than possession, see, e.g., United States v. Christie, 825
F.3d 1048, 1054 (9th Cir. 2016) (prosecution for
distributing large quantities of cannabis as part of
defendants’ Hawaii Cannabis Ministry). These cases do
not demonstrate that the CSA is enforced against the
kind of personal religious use that Adam allegedly
intends to engage in.
Even the 2018 memorandum by the U.S. Attorney
General concerning enforcement of the CSA—which the
district court refused to consider on the motion to
dismiss—does not particularize the CSA’s enforcement
in relation to Adam; he would simply be at risk just
like any other person in the country who might violate
the. CSA. While Adam argues that “a court is to assume
that the government will enforce its own laws,”
Appellant’s Br. at 22, that presumption, in and of itself,
is not sufficient to confer standing, as courts also
consider the extent of that enforcement in determining
whether a credible threat of prosecution exists. For
example, in Cayuga Nation, we found that the
plaintiffs had alleged a credible threat of prosecution
not only because their behavior was clearly prohibited
by an ordinance, but also because the town “announced

App. 8
its intention to enforce the Ordinance” against the
plaintiffs and warned the plaintiffs that failure to
comply might constitute an offense punishable by fine,
imprisonment, or both. 824 F.3d at 331; see also Susan
B. Anthony List, 573 U.S. at 164 (discussing history of
past enforcement of a statute against the petitioners,
for the same conduct, as being good evidence that “the
threat of enforcement is not ‘chimerical’” (quoting
Steffel v. Thompson, 415 U.S. 452, 459 (1974))); Knife
Rights, 802 F.3d at 385-87 (fear of prosecution not
conjectural or hypothetical “given that defendant
[district attorney] recently identified [plaintiff] as a
[state criminal law] violator and pursued enforcement
action against it”).
Because Adam has failed to allege facts sufficient to
demonstrate a credible threat of prosecution under the
CSA, the threat of enforcement against him is
insufficiently imminent to confer Article III standing.
See Knife Rights, 802 F.3d at 384.
We have reviewed the remainder of Adam’s
arguments and find them to be without merit. For the
foregoing reasons, the judgment of the district court is
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

App. 9

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
18-CV-2106 (AJN)
[Filed March 29, 2019]
Ben Adam,
Plaintiff,
—v—
William Barr, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

OPINION & ORDER
ALISON J. NATHAN, District Judge

App. 10
Pro se Plaintiff “Ben Adam”1 brings this action for a
declaratory judgment and an order enjoining
Defendants2 from enforcing the Controlled Substances
Act (“CSA”), asserting claims under the Religious
Freedom Restoration Act (“RFRA”), the Free Exercise
Clause of the First Amendment, and the Equal
Protection Clause of the Fifth and Fourteenth
Amendments. On July 10, 2018, Defendants filed a
motion to dismiss the amended complaint in this case.
Dkt. No. 14. For the following reasons, Defendants’
motion is granted.
I.

Background
A. Factual Background

The following facts • are drawn from Plaintiffs
Amended Complaint (“Am. Compl.”), Dkt. No. 13.
Plaintiff is the founder and president of Bnei
Haneviim, a “religious not-for-profit organization”
1 Plaintiff proceeds under a pseudonym, “Ben Adam,” because of
“the stigma attached to the entheogenic use of cannabis and the
fear of prosecution.” Am. Compl. THJ 1, 19. At this stage,
Defendants do not oppose. Dkt. No. 21 at 4 n.3. The Second Circuit
has provided a non-exhaustive, ten factor analysis for determining
when a party should be permitted to proceed under a pseudonym.
See Sealed Plaintijfv. Sealed Defendant, 537 F.3d 185, 188-90 (2d
Cir. 2008). It is not clear given the facts of the case whether
Plaintiff would be able to meet the standard in this Circuit.
However, because Defendants do not oppose and the Court grants
the motion to dismiss, it does not need to reach this question.
2 Under Federal Rule of Civil Procedure 25(d), William Barr has
been automatically substituted for Jefferson B. Sessions as a
defendant and Uttam Dhillon has been automatically substituted
for Robert W. Patterson as a defendant.

App. 11
formed under the laws of New York State and
headquartered in New York City. Am. Compl. ^ 10.
Bnei Haneveiim is an organization that is open to
“orthodox Jews who accept the six hundred and
thirteen commandments of the Torah . . . and who
believe in the potential of cannabis to help facilitate
prophetic states and religious experiences” as well as
“the lifestyle espoused by” Plaintiff. Am. Compl. f 11.
Plaintiff believes that when mentally and physically
healthy “adherents to the divine law” imbibe the
“cannabis plant,” “in an appropriate environment,” the
psychoactive properties of the “cannabis plant” can
help induce a “pre-prophetic ecstatic state” that “can
connect an individual to God and divine realms,
leading to perception of God,” as well as “higher forms
of prophecy.” Am. Compl. f 5. He also believes that use
of cannabis for such purposes “is a fulfillment of
several divine commandments, including ‘to cling to
God,’ ‘to know Him,’ and ‘to love Him.’” Am. Compl.
1 6. Plaintiff alleges that cannabis is an “invaluable
tool” achieving these preprophetic states. Am. Compl.
U 9. Plaintiff has also written a text called “The Path to
the Tree: Prophecy and its Pursuit in the Jewish
Tradition” expressing his views regarding the religious
use of cannabis. Am. Comp ^ 7.
Plaintiff alleges he has an immediate intention to
use cannabis for religious purposes. Am. Compl. f 8.
Plaintiff contends that it is Defendants’ “position that
cannabis is a Schedule I controlled substance pursuant
to 21 U.S.C. § 812 and 21 C.F.R. [§] 1308.11,” and notes
severe criminal and civil penalties are prescribed for
“what is deemed to be the unlawful importation,

App. 12
possession^] and distribution of cannabis pursuant to
21 U.S.C. §§ 841—44.” Am. Compl. If 12. Plaintiff
alleges that he has not been arrested or charged with
any crime, but that there is a “constant threat of
prosecution.” Am. Compl.
14-15. He alleges that his
prosecution for a cannabis-related offense could cause
him individual harm through the risk of criminal
sanctions and “desecration of the name of God” because
of the likelihood that any defense of his conduct would
be rejected by the prosecution and the court. Am.
Compl. ^ 16-17. Further, a prohibition on using
cannabis prevents Plaintiff from “freely practicing in
accordance with his religious beliefs.” Am. Compl. f 9.
Without declaratory relief, Plaintiff “suffers the harm
of being deprived safe access to products available to
other purchases of cannabis.” Am. Compl. f 18.
Based on his foregoing professed religious beliefs,
Plaintiff alleges violations of: RFRA (Count One), the
Free Exercise Clause of the First Amendment (Count
Two), and the Equal Protection Clause of the Fifth and
Fourteenth Amendments (Count Three). Am. Compl.
lH[20-29. Plaintiff seeks declaratory and injunctive
relief from enforcing the CSA against Plaintiff.
B. Procedural Background
Plaintiff filed his original complaint on March 8,
2018, seeDkt. No. 1., and on June 22, 2018, Defendants
filed.their initial motion to dismiss. Dkt. No. 10. The
Court issued an Order explaining to Plaintiff that he
was on notice that declining to amend his pleadings to
timely respond to arguments in Defendants’ motion to
dismiss may constitute a waiver of his right to use the
amendment process to cure any defects that had been

App. 13
made apparent by Defendants’ motion. See Dkt. No. 12.
On June 27, 2018, Plaintiff filed his amended
complaint, Dkt. No. 13, and on July 10, 2018,
Defendants filed the motion to dismiss presently before
this Court. Dkt. No. 14.
II.

Legal Standard

In deciding a motion to dismiss pursuant to Rule
12(b)(6), the Court accepts the factual allegations in the
Complaint as true and draws all reasonable inferences
in favor of the non-moving party. McCarthy v. Dun &
Bradstreet Corp., 482 F.3d 184, 191 (2d Cir. 2007). To
survive a motion to dismiss, the complaint must
include “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. u. Twombly, 550
U.S. 544, 570 (2007). A plaintiffs complaint “requires
more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do.” Id. at 555. However, “a pro se complaint, however
inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by lawyers.”
Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam).
If a party is proceeding pro se, a court shall construe
their complaint “to raise the strongest claim it
suggests.” Chavis v. Chappius, 618 F.3d 162, 170 (2d
Cir. 2010) (internal brackets omitted). In resolving a
motion to dismiss, review is limited to “the facts as
asserted within the four corners of the complaint, the
documents attached to the complaint as exhibits, and
any documents incorporated in the complaint by
reference.” McCarthy, 482 F.3d at 191.

App. 14
III.

Discussion
A. Plaintiff Has Not Sufficiently Alleged
Standing to Bring a Preenforcement
Challenge

As a threshold matter, Defendants argue that
Plaintiff has failed to allege standing because he has
failed to allege a concrete or actual injury. For the
reasons below, drawing all reasonable inferences in the
pro se Plaintiffs favor, the Court concludes that
Plaintiff has failed to allege a sufficiently imminent
injury to confer standing.
1. Legal Standard
To sufficiently allege Article III standing, a plaintiff
must allege “(1) an ‘injury in fact,’ (2) a sufficient
‘causal connection between the injury and the conduct
complained of,’ and (3) a likel[ihood]’ that the injury
‘will be redressed by a favorable decision.’” Knife
Rights, Inc. v. Vance, 802 F.3d 377, 383 (2d Cir. 2015)
(quoting Susan B. Anthony List v. Driehaus, 573 U.S.
149, 157-58 (2014)). As to the first element, “[f]or an
alleged injury to support constitutional standing, it
must be ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’” Knife
Rights, 802 F.3d at 383 (quoting Susan B. Anthony
List, 573 U.S. at 158).
As a general matter, “[p]reenforcement challenges
to criminal statutes... are cognizable under Article III.”
Cayuga Nation v. Tanner, 824 F.3d 321, 331 (2d Cir.
2016). When a Plaintiff “assert[s] injury from
threatened prosecution, the Supreme Court has
instructed that imminence does ‘not require a plaintiff

App. 15
to expose himself to liability before bringing suit to
challenge the basis for the threat—for example, the
constitutionality of a law threatened to be enforced.”’
Knife Rights, 802 F.3d at 384 (quoting Medimmune,
Inc. v. Genentech, Inc., 549 U.S. 118, 128-29 (2007)).
Instead, “in the context of pre-enforcement challenges
to criminal statutes, imminent injury can be
established by plausible allegations that a plaintiff
‘inten[ds] to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed
by ... statute, and there exists a credible threat of
prosecution thereunder.’” Id. (quoting Susan B.
Anthony List, 573 U.S. at 159). The credible fear of
prosecution standard ‘“sets a low threshold and is quite
forgiving to plaintiffs seeking such preenforcement
review,’ as courts are generally ‘willing to presume that
the government will enforce the law as long as the
relevant statute is recent and not moribund.’” Cayuga
Nation, 824 F.3d at 331 (quoting Hedges v. Obama, 724
F.3d 170, 197 (2d Cir. 2013)). However, ‘“[t]he
identification of a credible threat sufficient to satisfy
the imminence requirement of injury in fact necessarily
depends on the particular circumstances at issue.’”
Cayuga Nation, 824 F.3d at 331 (quoting Knife Rights,
802 F.3d at 384). A credible threat will not be found
“where plaintiffs do not claim that they have ever been
threatened with prosecution, that a prosecution is
likely, or even that a prosecution is remotely possible.”
Id. Thus, fears that are “imaginary or speculative” will
not satisfy the credible threat standard. Knife Rights,
802 F.3d at 384 (quoting Babbitt v. United Farm
Workers Nat’l Union, 442 U.S. 289, 298 (1979)). The
requirement that a fear of prosecution must be credible
extends equally to cases involving the Free Exercise

App. 16
Clause and RFRA. See Roman Catholic Archdiocese of
New York v. Sebelius, 907 F. Supp. 2d 310,322
(E.D.N.Y. 2012) (requiring “actual and well-founded
fear that the law will be enforced against” the plaintiff
(quoting Vermont Right to Life Comm., Inc. v. Sorrell,
221 F.3d 376, 382 (2d Cir.2000))).
2. Plaintiff Has Not Sufficiently Alleged
a Credible Threat of Prosecution
To sufficiently allege standing on his
preenforcement claim, Plaintiff must therefore allege
both a concrete intention to violate the law and the
credible threat of prosecution if he were to do so. See
Knife Rights, 802 F.3d at 390. The Court will analyze
each in turn. For the reasons below, the Court finds
that even assuming that Plaintiff has sufficiently
alleged a concrete intention to violate the CSA for
religious purposes, he has failed to sufficiently allege a
credible fear of prosecution for this conduct by
Defendants.
Plaintiffs only allegation regarding concrete intent
to violate the law is that he has “an immediate
intention to use cannabis for religious purposes.” Am.
Compl. f 8. Besides this general allegation, Plaintiff
has not alleged how he would seek to obtain marijuana,
how or where he intends to use it, nor how much
marijuana he intends to use. Nor does Plaintiff include
any allegations of prior marijuana use for religious
purposes. The majority of Plaintiffs amended
complaint only speaks to his religious beliefs about
marijuana, not his usage. See Am. Compl.
5-7, 9,
10. In his prayer for relief Plaintiff does request relief
from enforcement of the CSA against himself for the

App. 17
“religious use of cannabis, including its possession,
consumption, importation and distribution to members
of the Bnei Haneviim.” Am. Compl.
Prayer for
Relief 1-2. Yet nowhere in his amended complaint does
Plaintiff actually allege a concrete intent to engage in
that broader set of activities. Nonetheless, Defendants
do not dispute that the CSA prohibits the unauthorized
possession of marijuana. Dkt. No. 15 at 10 n.5; Dkt. No.
21 at 2. Thus, at most, Plaintiff has sufficiently alleged
a concrete intention to violate the CSA by possessing
marijuana for his own religious use.
Even assuming such a concrete intention, however,
Plaintiff does not sufficiently allege a credible fear of
prosecution by the Defendants for that conduct. As
discussed above, Plaintiff must allege “that he has []
been threatened with prosecution, that a prosecution is
likely, or[] that a prosecution is remotely possible.”
Knife Rights, 802 F.3d at 384 (internal quotation marks
omitted). This inquiry turns on “the particular
circumstances at issue.” Cayuga Nation, 824 F.3d at
331 (internal quotation marks omitted). Plaintiffs only
express allegation relating to the threat of prosecution
is his allegation that he is under a “constant threat of
prosecution,” Am. Compl. f 15, and the Court is not
required to credit such conclusory allegations. Ashcroft
v. Iqbal, 556 U.S. 662, 686 (2009). Furthermore, for the
following reasons, the Court concludes that Plaintiff
has not alleged any facts from which a credible fear of
prosecution by the Defendants for the intended conduct
could reasonably be inferred.
First, Plaintiff fails to allege that the CSA has ever
been enforced against him in the past. Courts have

App. 18
found that whether or not a law has been enforced
against a plaintiff in the past is an important factor in
the preenforcement standing analysis. See, e.g., Knife
Rights, 802 F.3d at 384-90. In Knife Rights, the Second
Circuit held that the plaintiffs had demonstrated a
credible threat of prosecution because, inter alia, the
defendants had engaged in recent enforcement actions
against the plaintiffs themselves and that there was an
express threat to prosecute the plaintiffs specifically.
802 F.3d at 390. This suggested that “upon becoming
aware of any such [illegal] conduct by plaintiffs,
defendants would again charge them with violations of
law.” Id. at 387; see also Oklevueha Native Am. Church
of Hawaii, Inc. v. Holder, 676 F.3d 829, 837 (9th Cir.
2012) (history of past enforcement against the plaintiffs
“eliminate[ed] any concerns that [the plaintiffs’] fear of
enforcement is purely speculative”). Plaintiff makes no
such allegation here. Indeed, he expressly notes that he
has never been arrested or charged with any crime
related to marijuana use for any purpose, let alone for
his religious purpose. Am. Compl. If 14.
Second, Plaintiff has not alleged that he has ever
been directly threatened with prosecution by anyone,
including the federal authority Defendants. Courts
have also taken into account direct or express threats
of prosecution in determining whether preenforcement
standing exists. See Cayuga Nation, 824 F.3d at 33132; Knife Rights, 802 F.3d at 390. In, Cayuga Nation,
the Second Circuit found that plaintiffs had sufficiently
pled preenforcement standing because they “plausibly
alleged that they [had] been directly threatened with
prosecution.” 824 F.3d at 331. Similarly, in Knife
Rights, the Second Circuit found there was standing in

App. 19
part based on “express threat[s] to prosecute” one of the
plaintiffs by the defendants. 802 F.3d at 390. Plaintiff
makes no such allegation here
Third, Plaintiff does not allege anything about the
enforcement of the CSA generally from which a
credible fear of prosecution by the Defendants for his
intended use of marijuana for religious purposes could
reasonably be inferred. In evaluating preenforcement
standing, courts look to “the history of past prosecution
or enforcement under the statute.” Oklevueha, 676 F.3d
at 835. Plaintiff does not make any allegations about
the past or current enforcement of the CSA.3 Nor does
Plaintiff allege that the CSA is regularly, or ever,
enforced against the personal religious use of
marijuana that he has alleged he wishes to engage in.
See Am. Compl. | 8. Thus, standing alone, Plaintiffs
failure to allege anything more than “an immediate
intention to use cannabis” for religious purposes, id., is
insufficient to allege that he faces a credible fear of
prosecution under the CSA by the federal government.
Finally, Plaintiff argues in his opposition that
alleging a chilling effect on his religious exercise should
be sufficient for standing. The amended complaint
makes no specific allegations in this regard, making
this issue difficult to assess. In an event, as noted
above, a credible threat of prosecution is still required
in preenforcement cases brought under the Free
3 Plaintiff has appended to his opposition to the motion to dismiss
a Memorandum from the Office of the Attorney General regarding
marijuana prosecution policies. Dkt. No. 18 at 52. However, at this
stage the Court will not consider materials that are beyond the
pleadings. See McCarthy, 482 F.3d at 191.

App. 20
Exercise Clause or RFRA alleging burdens on religious
exercise. See Roman Catholic Archdiocese of New York,
907 F. Supp. 2d at 322. Therefore Plaintiff s allegations
about the effect of the CSA on his religious beliefs are
insufficient for a preenforcement challenge absent a
credible fear of prosecution by the Defendants for
Plaintiffs intended marijuana use for religious
purposes.
Each of the above failures, standing alone, would
not necessarily be enough to warrant dismissing
Plaintiff s claim. Taken together, however, Plaintiff has
failed to allege any facts from which a credible threat
of prosecution by the Defendants for religious use of
marijuana could reasonably be inferred. Plaintiff has
therefore failed to sufficiently allege an imminent
injury on his preenforcement challenge, Cayuga
Nation, 824 F.3d at 331, and Defendants’ motion to
dismiss for lack of standing is granted.
IV.

Conclusion

For the foregoing reasons, Plaintiff has not
sufficiently alleged an injury to confer standing.
Defendants’ motion to dismiss is therefore GRANTED
without prejudice. See Katz u. Donna Karan Co.,
L.L.C., 872 F.3d 114, 121 (2d Cir. 2017) (“[Wjhere a
case is dismissed for lack of Article III standing, as
here, that disposition cannot be entered with prejudice,
and instead must be dismissed without prejudice.”
(emphasis in original)). This resolves Dkt. No. 14.
Plaintiffs order to show cause why a preliminary
injunction should not issue, Dkt. No. 24, is therefore
denied as moot. The Clerk of Court is respectfully
directed to close this case. \

App. 21
Chambers will mail a copy of this order to the pro se
Plaintiff and note its mailing on the public docket.
SO ORDERED.
Dated:

March _28_, 2019
New York, New York
s/_

ALISON J. NATHAN
United States District Judge

App. 22
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
18 CIVIL 2106 (AJN)
[Filed March 29, 2019]
Ben Adam,
Plaintiff,
-againstWilliam Barr, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

JUDGMENT
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the Court’s
Opinion and Order dated March 29, 2019, Plaintiff has
not sufficiently alleged an injury to confer standing.
Defendants’ motion to dismiss is therefore GRANTED
without prejudice. See Katz v. Donna Karan Co.,
L.L.C., 872 F.3d 114, 121 (2d Cir. 2017) (“[W]here a
case is dismissed for lack of Article III standing, as
here, that disposition cannot be entered with prejudice,
and instead must be dismissed without prejudice.”
(emphasis in original)). Plaintiffs order to show cause
why a preliminary injunction should not issue, is
therefore denied as moot; accordingly, the case is
closed.

App. 24

APPENDIX C
42 U.S.C. § 2000bb-l(c)
42 U.S. Code § 2000bb-l.Free exercise of religion
protected

(c) Judicial relief
A person whose religious exercise has been burdened in
violation of this section may assert that violation as a
claim or defense in a judicial proceeding and obtain
appropriate relief against a government. Standing to
assert a claim or defense under this section shall be
governed by the general rules of standing under article
III of the Constitution.
84 Stat. 1242

SUBCHAPTER I—CONTROL AND
ENFORCEMENT
Part A—Introductory Provisions
§ 801. Congressional findings and declarations:
controlled substances
The Congress makes the following findings and
declarations:
Many of the drugs included within this
(1)
subchapter have a useful and legitimate medical
purpose and are necessary to maintain the health and
general welfare of the American people.

App. 25
(2)
The
illegal importation,
manufacture,
distribution, and possession and improper use of
controlled substances have a substantial and
detrimental effect on the health and general welfare of
the American people.
(3)
A major portion of the traffic in controlled
substances flows through interstate and foreign
commerce. Incidents of the traffic which are not an
integral part of the interstate or foreign flow, such as
manufacture, local distribution, and possession,
nonetheless have a substantial and direct effect upon
interstate commerce because—
after manufacture,
many controlled
(A)
substances are transported in interstate commerce,
controlled substances distributed locally
(B)
usually have been transported in interstate
commerce immediately before their distribution,
and
controlled substances possessed commonly
(C)
flow through interstate commerce immediately
prior to such possession.
Local distribution and possession of controlled
(4)
substances contribute to swelling the interstate traffic
in such substances.
(5)
Controlled substances manufactured and
distributed intrastate cannot be differentiated from
controlled substances manufactured and distributed
interstate. Thus, it is not feasible to distinguish, in
terms of controls, between controlled substances

App. 26
manufactured and distributed interstate and controlled
substances manufactured and distributed intrastate.
Federal control of the intrastate incidents of the
(6)
traffic in controlled substances is essential to the
effective control of the interstate incidents of such
traffic.
The United States is a party to the Single
(7)
Convention on Narcotic Drugs, 1961, and other
international conventions designed to establish
effective control over international and domestic traffic
in controlled substances.
(Pub. L. 91-513, title II, §101, Oct. 27, 1970, 84 Stat.
1242.)

